No. 20-5813
In the Supreme Court of the United States

GLENN YOUNG,
Petitioner
vs.

DARREL VANNOY, WARDEN,
Respondent.

PROOF OF SERVICE
I, Glenn Young, certify that on this date, February 12, 2021, as required by
Supreme Court Rule 29, the Reply to Respondent’s Brief in Opposition was
served on each party, or that party’s counsel, as listed below. Service was made
by United States mail with first-class postage prepaid through the appropriate
Classification Officer assigned to my unit:
Louisiana Department of Justice
Attorney General’s Office
Attention: Solicitor General
Elizabeth Baker Murrill
1885 N. Third Street
Baton Rouge, Louisiana 70802

James E. Stewart Sr. District Attorney
Caddo Parish District Attorney’s Office
Attention: Appeals Division
501 Texas Street Fifth Floor
Shreveport, LA 71101 -5408

I declare under penalty of perjury that the foregoing is true and correct.
Executed on February 12, 2021

Additional material
from this filing is
available in the
Clerk's Office.

